HHS/OIG-Audit--"Review of Pension Costs Claimed for Medicare Reimbursement by Anthem Blue Cross and Blue Shield of Connecticut, (A-07-98-02502)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed for Medicare Reimbursement by Anthem
Blue Cross and Blue Shield of Connecticut ," (A-07-98-02502)
March 24, 1998
Complete Text of Report is available in PDF format
(140 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our review of Pension Costs Claimed for
Medicare Reimbursement by Anthem Blue Cross and Blue Shield of Connecticut (Connecticut)
for Fiscal Years 1992 through 1996. We determined that Connecticut claimed pension
costs of $2,725 for 1992 through 1996, that are unallowable for Medicare reimbursement.
During this period, the allowable Medicare pension costs were $61,560. However,
Connecticut claimed pension cots of $64,285 for Medicare reimbursement. As a
result, Connecticut claimed $2,725 in pension costs that are not allowable.
The over claim occurred due to differences in the separately computed Cost Accounting
Standards pension costs. We recommended that Connecticut revise its Final Administrative
Cost Proposals to eliminate the unallowable pension costs.